Showing general rates

All Credit Cards
Effective Date: May 1, 2020
Account

Annual Percentage Rate

Loan Amount (min/max)

Loan Term

Odyssey Rewards World Elite Mastercard

as low as 6.99%

$25,000 / $100,000

revolving

Choice Rewards World Mastercard

as low as 8.25%

$10,000 / $35,000

revolving

Platinum Rewards Mastercard

as low as 7.99%

$500 / $25,000

revolving

Platinum Mastercard

as low as 6.99%

$500 / $25,000

revolving

Platinum Secured Mastercard

as low as 9.00%

$500 / $25,000

revolving

Mastercard Credit Card Application
Disclosure
This information is accurate as of 5.1.20 and is subject to change after this date. For current information, please contact
First Tech Federal Credit Union at PO Box 2100, Beaverton, OR 97075-2100, call us at 855.855.8805 or visit
firsttechfed.com
Interest Rates and Charges
Odyssey Rewards World Elite Mastercard:
Platinum Mastercard:
Annual Percentage Rate
(APR) for Purchases

Platinum Rewards Mastercard:
Choice Rewards World Mastercard:
Platinum Secured Mastercard:

APR for Balance Transfers

6.99% to 18.00% when you open your account, based on your credit
worthiness

6.99% to 18.00% when you open your account, based on your credit
worthiness

7.99% to 18.00% when you open your account, based on your credit
worthiness

8.25% to 18.00% when you open your account, based on your credit
worthiness

9.00% to 18.00% when you open your account, based on your credit

worthiness
After that your APR will vary with the market based on the Prime Rate.
0.00% introductory APR for the first twelve billing cycles on balances transferred during the first 90 days after account
opening. After that:
6.99% to 18.00% when you open your account, based on your credit
Odyssey Rewards World Elite Mastercard:
worthiness
6.99% to 18.00% when you open your account, based on your credit
Platinum Mastercard:
worthiness
7.99% to 18.00% when you open your account, based on your credit
Platinum Rewards Mastercard:
worthiness
8.25% to 18.00% when you open your account, based on your credit
Choice Rewards World Mastercard:
worthiness
Your APR will vary with the market based on the Prime Rate.
9.00% to 18.00% when you open your account, based on your credit
Odyssey Rewards World Elite Mastercard:
worthiness

Page 1 of 3

Interest Rates and Charges
7.99% to 18.00% when you open your account, based on your credit
Platinum Mastercard:
worthiness
8.99% to 18.00% when you open your account, based on your credit
Platinum Rewards Mastercard:
worthiness
APR for Cash Advances
9.25% to 18.00% when you open your account, based on your credit
Choice Rewards World Mastercard:
worthiness
10.00% to 18.00% when you open your account, based on your credit
Platinum Secured Mastercard:
worthiness
This APR will vary with the market based on the Prime Rate.
Your due date is at least 21 days after the close of each billing cycle. We will not charge you interest on Purchases if you
How to Avoid Paying Interest
pay your entire balance by the due date each month. We will begin charging interest on cash advances and transfers as of
on Purchases
the transaction date.
Minimum Interest
None
For Credit Card from the
To learn more about factors to consider when applying for or using a credit card, visit the Consumer Financial Protection
Consumer Financial
Bureau at: www.consumerfinance.gov/learnmore
Protection Bureau
Fees
Odyssey Rewards World Elite
$75.00
Mastercard
Platinum Mastercard
Annual Fee

None

Platinum Rewards Mastercard

None

Choice Rewards World Mastercard
Platinum Secured Mastercard
Transaction Fees
Foreign Transaction
Cash Advance
Balance Transfer

None
None
None

Penalty Fees
Late Payment
Returned Payment

Up to $25.00
Up to $25.00

None
None

How We Will Calculate Your Balance: We use a method called “average daily balance” (excluding new purchases). For Cash
Advances and Balance Transfers, we use a method called "average daily balance" (including new Cash Advances and
Balance Transfers).
Variable Rate Information: Your APR may increase or decrease. Rates are determined and adjusted monthly on the day
following your statement closing date by adding a Margin to the highest U.S. Prime Rate as of the 15th of the previous
month. The Margin is determined based on an evaluation of each Member's credit history. The margin will range from
3.74% to 14.74% based on product type. Your maximum APR will not exceed 18%.
How we Calculate My Minimum Payment? Your minimum payment will be 2% of your balance or $25.00 whichever is
greater, if your balance is less than $25.00 your minimum payment will be equal to your balance.
Balance Transfers: The introductory APR for balance transfers is good for 12 billing cycles from date of completed
transfer on balances transferred within the first 90 days of account opening. After the 12 billing cycles, your rate will be
the standard purchases APR. Balances transferred from existing First Tech Federal Credit Union accounts are not eligible
for the introductory APR. Interest will start to accrue on the day the balance transfer is posted to your account, unless your
balance transfer is subject to a promotional APR of 0.00%. In this case, no interest will accrue on the balance transferred
until your 0% APR introductory period ends. If you take advantage of the introductory balance transfer offer, you will be
charged interest on purchases unless your purchase APR is at a promotional 0.00%. To avoid interest on new purchases
after you transfer a balance, you must pay your entire account balance on your account, including any balances you
transfer under the introductory APR, purchases or cash advances, in full by the end of your current cycle.
Change in Terms: We can change the terms of your account as permitted by law. When required, we will send you notice
Page 2 of 3

before doing so.
Loss of Introductory APR: We may end your introductory APR and apply the rate appropriate to your account, 6.99% to
18.00% for Balance Transfers APR, if you make a late payment during the introductory period. This APR will vary with the
market based on the Prime Rate.

Page 3 of 3

